Jititfes ©curt cf .Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted November 20,2020
Decided December 1, 2020
Before
FRANK H. EASTEKBROOK, Circuit Judge
DIANE P. WOOu, Circuit judge

No. 20-1769
LYNDON DAVIS,
Petitioner-Appellant,

Appeal from the United States District
Court for the Southern District of
Indiana, Indianapolis Division.

v.

No. 1:19-cv-00088-JPH-MJD

DENNIS REAGLE,
Respondent-Appellee.

James Patrick Hanlon,

Judge.
ORDER

Lyndon Davis has filed a notice of appeal from the denial of his petition under
28 U.S.C. § 2254 and an application for a certificate of appealability. This court has
reviewed the final order of the district court and the record on appeal. We find no
substantial showing of the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, the request for a certificate of appealability is DENIED.

4

